No. 20-222

3fn tbe $upreme QJ:ourt of tbe Wniteb $tateg

GOLDMAN SACHS GROUP, I NC.,

et al., PETITIONERS,

u.
ARKANSAS TEACHER RETIREMENT SYSTEM,

et al.

On Writ of Certiorari to th e United States
Court of Appeals for the Second Circuit

CERTIFICATE OF COMPLIANCE
As required by Supreme Cour t Rule 33.1(h), I hereby certify that the "Brief of
the Society for Corporate Governance as Amicus Curiae in Support of Petitioners"
filed in the above-captioned matter contains 5,250 words, excluding the parts of the
document that are exempted by Supreme Court Rule 33. 1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on February 1, 2021.

JerJmy C. Ma rwell
Counsel for Amicus Curiae

